 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




RISK ADJUSTMENT DATA VALIDATION
 OF PAYMENTS MADE TO EXCELLUS
      HEALTH PLAN, INC., FOR
       CALENDAR YEAR 2007
    (CONTRACT NUMBER H3351)


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Daniel R. Levinson
                                                    Inspector General

                                                      October 2012
                                                      A-02-09-01014
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Under the Medicare Advantage (MA) program, the Centers for Medicare & Medicaid Services
(CMS) makes monthly capitated payments to MA organizations for beneficiaries enrolled in the
organizations’ health care plans. Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act
require that these payments be adjusted based on the health status of each beneficiary. CMS uses
the Hierarchical Condition Category (HCC) model (the CMS model) to calculate these risk-
adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. MA organizations identify the diagnoses relevant to the CMS model and
submit these diagnoses to CMS. CMS categorizes the diagnoses into groups of clinically related
diseases called HCCs and uses the HCCs and demographic characteristics to calculate a risk
score for each beneficiary. CMS then uses the risk scores to adjust the monthly capitated
payments to MA organizations for the next payment period.

Excellus Health Plan, Inc. (Excellus), is an MA organization located in Rochester, New York.
For calendar year (CY) 2007, Excellus had multiple contracts with CMS, including contract
H3351, which we refer to as “the contract.” Under the contract, CMS paid Excellus
approximately $488 million to administer health care plans for approximately 48,000
beneficiaries.

OBJECTIVE

Our objective was to determine whether the diagnoses that Excellus submitted to CMS for use in
CMS’s risk score calculations complied with Federal requirements.

SUMMARY OF FINDINGS

The diagnoses that Excellus submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. For 53 of the 98 beneficiaries in our sample, the risk
scores calculated using the diagnoses that Excellus submitted were valid. The risk scores for the
remaining 45 beneficiaries were invalid because the diagnoses were not supported for 1 or more
of the following reasons:

   •   The documentation did not support the associated diagnosis.

   •   Excellus did not provide any documentation to support the associated diagnosis.

   •   The diagnosis was unconfirmed.

Although Excellus had written policies and procedures for obtaining, processing, and submitting
diagnoses to CMS, its practices were not effective in ensuring that the diagnoses it submitted to


                                                  i
CMS complied with the requirements of the 2006 Risk Adjustment Data Basic Training for
Medicare Advantage Organizations Participant Guide and the 2007 Risk Adjustment Data
Training for Medicare Advantage Organizations Participant Guide . Excellus officials stated
that the providers were responsible for the accuracy of the diagnoses that Excellus submitted to
CMS.

As a result of these unsupported and unconfirmed diagnoses, Excellus received $157,777 in
overpayments from CMS. Based on our sample results, we estimated that Excellus was overpaid
approximately $41,588,811 in CY 2007.

RECOMMENDATIONS

We recommend the following:

   •   Excellus should refund to the Federal Government $157,777 in overpayments identified
       for the sampled beneficiaries.

   •   Excellus should work with CMS to determine the correct contract-level adjustment for
       the projected $41,588,811 of overpayments. (This amount represents our point estimate.
       However, it is our policy to recommend recovery of overpayments at the lower limit of
       the 90-percent confidence interval, which is $28,875,675. See Appendix B.)

   •   Excellus should improve its current practices to ensure compliance with the Federal
       requirements.

EXCELLUS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Excellus disagreed with our recommended financial
disallowance and the results of our first and second rounds of medical review for 13 HCCs, and
Excellus provided further information regarding the HCCs under separate cover. In addition,
Excellus stated that our overpayment finding was inflated and based on flawed data, including
the size of our sampling frame. Excellus also stated that an adjustment should be made to
account for the documentation shortfalls that were inherent in the calibration of the payment
model, which is based on fee-for-service claim data. Excellus added that our audit practices
differed significantly from CMS’s risk adjustment data validation audit procedures. Finally,
regarding our recommendation to improve its current practices to ensure compliance with
Federal requirements, Excellus described steps it has taken to improve its processes. Excellus’
comments appear in their entirety as Appendix D.

We submitted the additional information provided by Excellus to our medical review contractor
for a third medical review and revised our findings accordingly. Also, after verifying that some
beneficiaries no longer met our criteria, we removed them from the sampling frame. Based on
the results of the medical review and the adjusted sampling frame, we revised our report
accordingly.




                                                ii
Although an analysis to determine the potential impact of error rates inherent in fee-for-service
data on MA payments was beyond the scope of our audit, we acknowledge that CMS is studying
this issue and its potential impact on audits of MA organizations. Therefore, because of the
potential impact of these error rates on the CMS model that we used to recalculate MA payments
for the beneficiaries in our sample, we (1) modified one recommendation to have Excellus
refund only the overpayments identified for the sampled beneficiaries rather than refund the
projected overpayments and (2) added a recommendation that Excellus work with CMS to
determine the correct contract-level adjustments for the projected overpayments.




                                               iii
                                                 TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Advantage Program .............................................................................1
              Risk-Adjusted Payments ......................................................................................1
              Federal Requirements ..........................................................................................1
              Excellus Health Plan, Inc. ....................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          FEDERAL REQUIREMENTS ........................................................................................5

          UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES .............................6
               Unsupported Diagnosis Coding ...........................................................................6
               No Documentation Provided................................................................................7
               Unconfirmed Diagnosis .......................................................................................7

          CAUSES OF OVERPAYMENTS ...................................................................................7

          ESTIMATED OVERPAYMENTS .................................................................................7

          RECOMMENDATIONS .................................................................................................8

          EXCELLUS COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................8
               Statistical Issues Related to the Office of Inspector General’s
                 Extrapolation Methodology ..............................................................................9
               Fee-for-Service Error Rate Adjustment ...............................................................9
               Missing Provider Signature and/or Credentials ...................................................10
               Additional Codes and Underpayment Calculations .............................................10
               Diagnosis Coding Issues ......................................................................................11
               Sample Enrollment Discrepancies .......................................................................12
               Sample Frame Enrollment Discrepancies ............................................................12
               Inclusion of Beneficiaries With End-Stage Renal Disease ..................................12
               Due Process/Opportunity To Be Heard ...............................................................13




                                                                    iv
APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: DOCUMENTATION ERRORS IN SAMPLE

    D: EXCELLUS COMMENTS




                               v
                                             INTRODUCTION

BACKGROUND

Medicare Advantage Program

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
revised Medicare Part C and renamed the program the Medicare Advantage (MA) program.
Organizations that participate in the MA program include health maintenance organizations,
preferred provider organizations, provider-sponsored organizations, and private fee-for-service
(FFS) plans. The Centers for Medicare & Medicaid Services (CMS), which administers the
Medicare program, makes monthly capitated payments to MA organizations for beneficiaries
enrolled in the organizations’ health care plans (beneficiaries).

Risk-Adjusted Payments

Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act require that payments to MA
organizations be adjusted based on the health status of each beneficiary. In calendar year
(CY) 2004, CMS implemented the Hierarchical Condition Category (HCC) model (the CMS
model) to calculate these risk-adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. 1 MA organizations identify the diagnoses relevant to the CMS model and
submit them to CMS. CMS categorizes the diagnoses into groups of clinically related diseases
called HCCs and uses the HCCs, as well as demographic characteristics, to calculate a risk score
for each beneficiary. CMS then uses the risk scores to adjust the monthly capitated payments to
MA organizations for the next payment period. 2

Federal Requirements

Regulations (42 CFR § 422.310(b)) require MA organizations to submit risk adjustment data to
CMS in accordance with CMS instructions. CMS issued instructions in its 2006 Risk Adjustment
Data Basic Training for Medicare Advantage Organizations Participant Guide (the 2006
Participant Guide) that provided requirements for submitting risk adjustment data for the
CY 2006 data collection period. CMS issued similar instructions in its 2007 Risk Adjustment
Data Training for Medicare Advantage Organizations Participant Guide (the 2007 Participant
Guide).

1
 Risk adjustment data also include health insurance claim numbers, provider types, and the from and through dates
for the services.
2
 For example, CMS used data that MA organizations submitted for the CY 2006 data collection period to adjust
payments for the CY 2007 payment period.



                                                        1
Diagnoses included in risk adjustment data must be based on clinical medical record
documentation from a face-to-face encounter; coded according to the International Classification
of Diseases, Ninth Revision, Clinical Modification (ICD-9-CM) (the Coding Guidelines);
assigned based on dates of service within the data collection period; and submitted to the MA
organization from an appropriate risk adjustment provider type and an appropriate risk
adjustment physician data source. The 2006 and 2007 Participant Guides described requirements
for hospital inpatient, hospital outpatient, and physician documentation.

Excellus Health Plan, Inc.

Excellus Health Plan, Inc. (Excellus), is an MA organization located in Rochester, New York.
For CY 2007, Excellus had multiple contracts with CMS, including contract H3351, which we
refer to as “the contract.” Under the contract, CMS paid Excellus approximately $488 million to
administer health care plans for approximately 48,000 beneficiaries.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the diagnoses that Excellus submitted to CMS for use in
CMS’s risk score calculations complied with Federal requirements.

Scope

Our review covered approximately $261 million of the CY 2007 MA organization payments that
CMS made to Excellus on behalf of 25,832 beneficiaries. These payments were based on risk
adjustment data that Excellus submitted to CMS for CY 2006 dates of service for beneficiaries
who (1) were continuously enrolled under the contract during all of CY 2006 and January of
CY 2007 3 and (2) had a CY 2007 risk score that was based on at least one HCC. We limited our
review of Excellus’ internal control structure to controls over the collection, processing, and
submission of risk adjustment data.

We asked Excellus to provide us with the one medical record that best supported the HCC(s) that
CMS used to calculate each risk score. If our review found that a medical record did not support
one or more assigned HCCs, we gave Excellus the opportunity to submit an additional medical
record for a second medical review.

We performed our fieldwork at Excellus’ corporate office in Rochester, New York, and at CMS
in Baltimore, Maryland, from December 2008 to January 2010.




3
 We limited our sampling frame to continuously enrolled beneficiaries to ensure that Excellus was responsible for
submitting the risk adjustment data that resulted in the risk scores covered by our review.


                                                        2
Methodology

To accomplish our objective, we did the following:

    •   We reviewed applicable Federal laws, regulations, and guidance regarding payments to
        MA organizations.

    •   We interviewed CMS officials to obtain an understanding of the CMS model.

    •   We obtained the services of a medical review contractor to determine whether the
        documentation that Excellus submitted supported the HCCs associated with the
        beneficiaries in our sample.

    •   We interviewed Excellus officials to gain an understanding of Excellus’ internal controls
        for obtaining risk adjustment data from providers, processing the data, and submitting the
        data to CMS.

    •   We obtained enrollment data, CY 2007 beneficiary risk score data, and CY 2006 risk
        adjustment data from CMS and identified 25,832 beneficiaries 4 who (1) were
        continuously enrolled under the contract during all of CY 2006 and January of CY 2007
        and (2) had a CY 2007 risk score that was based on at least 1 HCC.

    •   We selected a simple random sample of 98 beneficiaries 5 with 215 HCCs. (See
        Appendix A for our sample design and methodology.) For each sampled beneficiary, we:

             o   analyzed the CY 2007 beneficiary risk score data to identify the HCC(s) that
                 CMS assigned;

             o   analyzed the CY 2006 risk adjustment data to identify the diagnosis or diagnoses
                 that Excellus submitted to CMS associated with the beneficiary’s HCC(s);

             o   requested that Excellus provide us with the one medical record that, in Excellus’
                 judgment, best supported the HCC(s) that CMS used to calculate the beneficiary’s
                 risk score;




4
 After we issued our draft report, Excellus performed a membership analysis and resolved a vendor Risk
Adjustment Processing System software issue. As a result, we removed 38 beneficiaries who no longer met our
sample criteria from our original sampling frame of 25,870.
5
 We removed 2 beneficiaries included in our original sample size of 100. These 2 were included in the 38
described in footnote 4.



                                                        3
                  o   obtained Excellus’ certification that the documentation provided represented “the
                      one best medical record to support the HCC”; 6 and

                  o submitted Excellus’ documentation and HCCs for each beneficiary to our medical
                    review contractor for a first round of review and requested additional
                    documentation from Excellus for a second round of review if the contractor found
                    that documentation submitted during the first round did not support the HCCs.

       •       For HCCs we questioned in our draft report with which Excellus disagreed, 7 Excellus
               provided additional information. We then submitted this information to our medical
               review contractor for a third round of review.

       •       For the sampled beneficiaries that we determined to have unsupported HCCs, we (1) used
               the medical review results to adjust the beneficiaries’ risk scores, (2) recalculated CY
               2007 payments using the adjusted risk scores, and (3) subtracted the recalculated CY
               2007 payments from the actual CY 2007 payments to determine the overpayments made
               on behalf of the beneficiaries.

       •       We estimated the total value of overpayments based on our sample results. (See
               Appendix B for our sample results and estimates.)

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The diagnoses that Excellus submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. For 53 of the 98 beneficiaries in our sample, the risk
scores calculated using the diagnoses that Excellus submitted were valid. The risk scores for the
remaining 45 beneficiaries were invalid because the diagnoses were not supported for 1 or more
of the following reasons:

           •    The documentation did not support the associated diagnosis.

           •     Excellus did not provide any documentation to support the associated diagnosis.


6
  The 2006 Participant Guide, sections 8.2.3 and 8.2.3.1, and the 2007 Participant Guide, sections 7.2.3 and 7.2.3.1,
require plans to select the “one best medical record” to support each HCC and indicate that the best medical record
could include a range of consecutive dates (if the record is from a hospital inpatient provider) or one date (if the
record is from a hospital outpatient or physician provider).
7
    Excellus disagreed with 13 of 80 HCCs questioned in our draft report.



                                                           4
      •   The diagnosis was unconfirmed. 8

Although Excellus had written policies and procedures for obtaining, processing, and submitting
diagnoses to CMS, its practices were not effective in ensuring that the diagnoses it submitted to
CMS complied with the requirements of the 2006 and 2007 Participant Guides. Excellus
officials stated that providers were responsible for the accuracy of the diagnoses that Excellus
submitted to CMS.

As a result of these unsupported and unconfirmed diagnoses, Excellus received $157,777 in
overpayments from CMS. Based on our sample results, we estimated that Excellus was overpaid
approximately $41,588,811 in CY 2007.

FEDERAL REQUIREMENTS

Regulations (42 CFR § 422.310(b)) state: “Each MA organization must submit to CMS (in
accordance with CMS instructions) the data necessary to characterize the context and purposes
of each service provided to a Medicare enrollee by a provider, supplier, physician, or other
practitioner. CMS may also collect data necessary to characterize the functional limitations of
enrollees of each MA organization.” The 2007 Participant Guide, section 8.7.3, and the 2006
Participant Guide, section 7.7.3, state that “MA organizations are responsible for the accuracy of
the data submitted to CMS.”

Pursuant to section 2.2.1 of the 2007 and 2006 Participant Guides, risk adjustment data
submitted to CMS must include a diagnosis. Pursuant to the 2007 Participant Guide,
section 7.1.4, and the 2006 Participant Guide, section 8.1.3, the diagnosis must be coded
according to the Coding Guidelines. Section III of the Coding Guidelines states that for each
hospital inpatient stay, the hospital’s medical record reviewer should code the principal diagnosis
and “… all conditions that coexist at the time of admission, that develop subsequently, or that
affect the treatment received and/or length of stay. Diagnoses that relate to an earlier episode
which have no bearing on the current hospital stay are to be excluded.” Sections II and III of the
Coding Guidelines state that “if the diagnosis documented at the time of discharge is qualified as
‘probable,’ ‘suspected,’ ‘likely’, ‘questionable,’ ‘possible,’ or ‘still to be ruled out,’ code the
condition as if it existed or was established.”

Section IV of the Coding Guidelines states that for each outpatient and physician service, the
provider should “[c]ode all documented conditions that coexist at the time of the encounter/visit,
and require or affect patient care treatment or management.” The Coding Guidelines also state
that conditions should not be coded if they “… were previously treated and no longer exist.
However, history codes … may be used as secondary codes if the historical condition or family
history has an impact on current care or influences treatment.” Additionally, in outpatient and
physician settings, uncertain diagnoses, including those that are “probable,” “suspected,”
“questionable,” or “working,” should not be coded.

8
 The 2006 and 2007 Participant Guides state that physicians and hospital outpatient departments may not code
diagnoses documented as “probable,” “suspected,” “questionable,” “rule out,” or “working.” The Participant Guides
consider these diagnoses as unconfirmed. (See section 5.4.2 of the 2006 Participant Guide and section 6.4.2 of the
2007 Participant Guide.)


                                                        5
UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES

To calculate beneficiary risk scores and risk-adjusted payments to MA organizations, CMS must
first convert diagnoses to HCCs. During our audit period, Excellus submitted to CMS at least
one diagnosis associated with each HCC that CMS used to calculate each sampled beneficiary’s
risk score for CY 2007. The risk scores for 45 sampled beneficiaries were invalid because the
diagnoses that Excellus submitted to CMS were not supported, confirmed, or both. These
diagnoses were associated with 60 HCCs. Appendix C shows the documentation error or errors
found for each of the 60 HCCs. These errors were for unsupported diagnosis coding, no
documentation provided, and an unconfirmed diagnosis.

Unsupported Diagnosis Coding

The documentation that Excellus submitted to us for medical review did not support the
diagnoses associated with 59 HCCs. The following are examples of HCCs that were not
supported by Excellus’ documentation.

     •   For one beneficiary, Excellus submitted the diagnosis code for “intermediate coronary
         syndrome.” CMS used the HCC associated with this diagnosis in calculating the
         beneficiary’s risk score. However, the documentation that Excellus provided noted the
         diagnosis as coronary artery disease, which does not have an associated HCC.

     •   For a second beneficiary, Excellus submitted the diagnosis code for “diabetes mellitus
         without mention of complication, type II or unspecified type, not stated as uncontrolled.”
         CMS used the HCC associated with this diagnosis in calculating the beneficiary’s risk
         score. However, the documentation that Excellus provided indicated that the patient was
         treated for left leg cellulitis with rigors, coronary artery disease, hypertension,
         hyperlipidemia, and “new right bundle branch block.” 9 The documentation did not
         mention diabetes or indicate that diabetes had affected the care, treatment, or
         management provided during the encounter.

     •   For a third beneficiary, Excellus submitted the diagnosis code for “chronic
         glomerulonephritis with unspecified pathological lesion in kidney.” 10 CMS used the
         HCC associated with this diagnosis in calculating the beneficiary’s risk score. However,
         the documentation that Excellus provided referenced an outpatient colonoscopy. The
         documentation did not mention glomerulonephritis or indicate that glomerulonephritis
         had affected the care, treatment, or management provided during the encounter.




9
 Cellulitis is a bacterial infection of the skin, coronary artery disease and bundle branch blocks are related to the
heart, hypertension relates to high blood pressure, and hyperlipidemia relates to high blood cholesterol levels.
10
  Glomerulonephritis is a type of kidney disease in which the part of the kidneys that helps filter waste and fluids
from the blood is damaged.


                                                            6
No Documentation Provided

One HCC was unsupported because Excellus did not provide any documentation.

Excellus submitted the diagnosis code for “diabetes with renal or peripheral circulatory
manifestation.” CMS used the HCC associated with this diagnosis in calculating the
beneficiary’s risk score. However, Excellus officials indicated that they could not obtain any
medical records to support the HCC.

Unconfirmed Diagnosis

One HCC was unsupported because the diagnosis submitted to CMS was unconfirmed.

Excellus submitted the diagnosis code for “peripheral vascular disease, unspecified.” CMS used
the HCC associated with this diagnosis in calculating the beneficiary’s risk score. The
documentation that Excellus submitted noted the diagnosis as “? peripheral vascular disease.”
Diagnoses that are “probable,” “suspected,” “questionable,” or “working” should not be coded.

CAUSES OF OVERPAYMENTS

During our audit period, Excellus had written policies and procedures for obtaining, processing,
and submitting risk adjustment data to CMS. According to these policies and procedures,
Excellus used chart validation to ensure the accuracy of the diagnoses that it submitted to CMS.
Excellus officials told us that they used provider outreach for the same purpose.

   •   Chart validation is a review of documentation to ensure that the diagnoses submitted to
       CMS are correctly coded. Excellus officials stated that Excellus currently validates
       approximately 25 percent of charts; however, the officials stated that Excellus reviewed
       fewer charts during our audit period.

   •   Excellus conducts provider outreach through its Web site and monthly newsletters, which
       include tips for accurate risk adjustment coding.

As demonstrated by the significant error rate found in our sample, Excellus’ practices were not
effective for ensuring that the diagnoses submitted to CMS complied with the requirements of
the 2006 and 2007 Participant Guides. Excellus officials stated that providers were responsible
for the accuracy of the diagnoses that Excellus submitted to CMS.

ESTIMATED OVERPAYMENTS

As a result of the unsupported and unconfirmed diagnoses in our sample, Excellus received
$157,777 in overpayments from CMS. Based on our sample results, we estimated that Excellus
was overpaid approximately $41,588,811 in CY 2007. However, while an analysis to determine
the potential impact of error rates inherent in FFS data on MA payments was beyond the scope




                                                7
of our audit, we acknowledge that CMS is studying the potential impact of error rates inherent in
FFS data on MA payments to MA organizations. 11

Therefore, because of the potential impact these error rates could have on the CMS model that
we used to recalculate MA payments for the beneficiaries in our sample, we (1) modified one
recommendation to have Excellus refund only the overpayments identified for the sampled
beneficiaries rather than refund the projected overpayments and (2) added a recommendation that
Excellus work with CMS to determine the correct contract-level adjustments for the projected
overpayments.

RECOMMENDATIONS

We recommend the following:

       •   Excellus should refund to the Federal Government $157,777 in overpayments identified
           for the sampled beneficiaries.

       •   Excellus should work with CMS to determine the correct contract-level adjustment for
           the projected $41,588,811 of overpayments 12.

       •   Excellus should improve its current practices to ensure compliance with the Federal
           requirements.

EXCELLUS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Excellus disagreed with our recommended financial
disallowance and the results of our first and second rounds of medical review for 13 HCCs, and
Excellus provided further information regarding the HCCs under separate cover. In addition,
Excellus stated that our overpayment finding was inflated and based on flawed data, including
the size of our sampling frame. Excellus also stated that an adjustment should be made to
account for the documentation shortfalls that were inherent in the calibration of the payment
model, which is based on FFS claim data. Excellus added that our audit practices differed
significantly from CMS’s risk adjustment data validation (RADV) audit procedures. Finally,
regarding our recommendation to improve its current practice to ensure compliance with Federal
requirements, Excellus described steps it has taken to improve its processes. Excellus’
comments appear in their entirety as Appendix D.

We submitted the additional information provided by Excellus to our medical review contractor
for a third medical review and revised our findings accordingly. Also, after verifying that some
beneficiaries no longer met our criteria, we removed them from the sampling frame. Based on
the results of the medical review and the adjusted sampling frame, we revised our report
accordingly.

11
     75 Fed. Reg. 19749 (April 15, 2010).
12
  This amount represents our point estimate. However, it is our policy to recommend recovery of overpayments at
the lower limit of the 90-percent confidence interval, which is $28,875,675. See Appendix B.


                                                       8
Although an analysis to determine the potential impact of error rates inherent in FFS data on MA
payments was beyond the scope of our audit, we acknowledge that CMS is studying this issue
and its potential impact on audits of MA organizations. 13 Therefore, because of the potential
impact these error rates could have on the CMS model that we used to recalculate MA payments
for the beneficiaries in our sample, we (1) modified one recommendation to have Excellus
refund only the overpayments identified for the sampled beneficiaries rather than refund the
projected overpayments and (2) added a recommendation that Excellus work with CMS to
determine the correct contract-level adjustments for the projected overpayments.

Statistical Issues Related to the Office of Inspector General’s Extrapolation Methodology

Excellus Comments

Excellus stated that our sample of 100 beneficiaries was too small to meet acceptable confidence
and precision levels and should not be used to measure a potential overpayment. Further,
Excellus stated that the sample was not representative of the population, as Excellus underwent a
CMS RADV audit for the same contract for the prior payment year with significantly different
results. In addition, Excellus stated that it believes that the Office of Inspector General (OIG)
should use a 99-percent rather than a 90-percent confidence interval, given the recommended
payment retraction amount.

Office of Inspector General Response

Our sample size of 100 beneficiaries provided a fair and unbiased representation of the
beneficiaries in our sampling frame (population). A sample of 100 beneficiaries is both
consistent with our established policy and sufficient to ensure valid sample results. We
acknowledge that the error rate for the CMS RADV audit was different; however, we note that
the population reviewed as part of that audit was different from the population reviewed as part
of this audit. In addition, when specifying a recovery amount, it is OIG policy to use the lower
limit of the 90-percent confidence interval, as we have 95-percent confidence that the actual
amount overpaid is greater than the recommended recovery amount.

Fee-for-Service Error Rate Adjustment

Excellus Comments

Excellus stated that an adjustment should be made to the error rate to account for documentation
shortfalls that were inherent in the calibration of the risk-adjusted payment model. Excellus also
stated that the MA risk-adjusted payment methodology was developed and calibrated based on
claim data; however, CMS determined that the underlying medical record is the ultimate source
of diagnosis information. Excellus stated that an adjustment to the error rate would address this
inconsistency.




13
     75 Fed. Reg. 19749 (April 15, 2010).


                                                9
Office of Inspector General Response

According to section 6.5 of the 2007 Participant Guide and section 5.5 of the 2006 Participant
Guide, “reported diagnoses must be supported with medical record documentation.” We used
medical records as inputs to support HCCs because medical records must support the diagnoses
that were used to assign the HCCs.

Our methodology to recalculate the MA payments was appropriate because we used the CMS
model to calculate Excellus’ monthly contract-level capitation payments. An analysis to
determine the potential impact of error rates inherent in Medicare FFS data on MA payments
was outside the scope of this audit. However, in its Final Rule “Medicare Program; Policy and
Technical Changes to the Medicare Advantage and the Medicare Prescription Drug Benefit
Programs,” CMS stated that there may be merit in further refining the calculation of payment
errors that result from postpayment validation efforts. 14 Given the potential impact of this error
rate on the CMS model that we used to recalculate MA payments, we modified our first
recommendation to seek a refund only for the overpayments identified for the sampled
beneficiaries. We made an additional recommendation that Excellus work with CMS to
determine the correct contract-level adjustments for the projected overpayments.

Missing Provider Signature and/or Credentials

Excellus Comments

Excellus stated that we should have allowed provider signature attestations at the outset of the
audit to be consistent with CMS’s RADV audit methodology and indicated that OIG recently
changed its stance on the subject.

Office of Inspector General Response

We did not initially accept physician attestations because the 2007 Participant Guide,
section 7.2.4.5, and the 2006 Participant Guide, section 8.2.4.4, stated that documentation
supporting the diagnosis must include an acceptable physician signature. However, pursuant to a
2010 change in Federal regulations (42 CFR § 422.311), we accepted signature attestations and
revised our findings accordingly.

Additional Codes and Underpayment Calculations

Excellus Comments

Excellus stated that we did not accept additional HCCs identified within the medical records
submitted for review that could have affected an audit member’s risk score. Excellus stated that
CMS’s Final Rule indicates CMS’s willingness to accept additional diagnosis codes and relative
HCCs found with the medical record submitted for audit purposes. Excellus stated that our
failure to allow consideration of these additional codes denied Excellus its right to have the
codes considered under CMS’s procedures.
14
     75 Fed. Reg. 19749 (April 15, 2010).


                                                 10
Office of Inspector General Response

Our objective was to determine whether the diagnoses that Excellus submitted to CMS for use in
CMS’s risk score calculations complied with Federal requirements. Additional diagnoses that
were not originally reported to CMS were outside the scope of our audit. Therefore, we did not
consider additional diagnoses.

Diagnosis Coding Issues

Excellus Comments

Excellus stated that it did not agree with the findings for 13 HCCs 15 for which our medical
review contractor did not find support during the first and second medical reviews. Under
separate cover, Excellus provided additional information related to these HCCs that was not
presented during the first two medical reviews. 16

Excellus also stated that for four of the five HCCs for which no documentation was provided, an
error in its vendor’s software had incorrectly submitted diagnosis clusters under the wrong
Medicare health insurance claim number. Excellus stated that, after discovering the error, it
performed an analysis on all contracts and submitted a deletion file to CMS of over 600
diagnosis clusters and completed a payment retraction in August 2010. Excellus stated that the
four HCCs should be excluded from the audit because any risk-adjusted payments based on them
were reconciled with CMS.

Office of Inspector General Response

We submitted the additional information provided by Excellus for the 13 HCCs to our medical
review contractor for a third medical review. For the review, our contractor followed the same
protocol used during each of the first two reviews. Our contractor found that the additional
information supported and validated 4 of the 13 HCCs. Therefore, we revised our findings
accordingly.

Regarding the four HCCs for which no documentation was provided, we verified that the
payments were retracted and removed the HCCs from our audit. This resulted in removing one
of the beneficiaries from our sample, as the beneficiary no longer had any related HCCs during
our audit period. We revised our report accordingly.



15
 In its comments on our draft report, Excellus contested the decision of our medical reviewers for eight HCCs.
Under separate cover, Excellus contested an additional five HCCs.
16
  Specifically, Excellus stated that five of the HCCs were determined to be invalid because they were contained
within a diagnostic report that OIG’s reviewers commented was an inappropriate documentation source; however,
providers of the referenced services are either the ordering provider or a member of the practice, and the findings are
considered a final diagnosis. In addition, Excellus maintained that OIG’s reviewers did not validate eight other
HCCs because the reviewers incorrectly applied CMS or ICD-9 coding guidelines. Excellus requested that the
records be reviewed by another coder.


                                                          11
Sample Enrollment Discrepancies

Excellus Comments

Excellus stated that enrollment and payment discrepancies related to our sample must be
corrected based on current monthly membership report information. Excellus also stated that
one beneficiary was retroactively disenrolled for all of payment year 2007 and that another
beneficiary, assumed to be enrolled for the full calendar year 2007, was only enrolled during the
first 8 months of the year. Therefore, Excellus requested that we adjust our calculations.

Office of Inspector General Response

We confirmed that one beneficiary was retroactively disenrolled for all of payment year 2007
and that payments related to the beneficiary were retracted. We removed the beneficiary from
our sample and revised our report accordingly. Regarding the beneficiary enrolled only during
the first 8 months of the year, we determined—and confirmed with Excellus—that the
beneficiary was enrolled under the contract during the rest of the year under a different health
insurance claim number.

Sample Frame Enrollment Discrepancies

Excellus Comments

Excellus stated that it found more than 1,200 beneficiaries included in the sampling frame who
no longer met the criteria of having been continuously enrolled with Excellus for the 13-month
period from January 2006 through January 2007 and having at least 1 HCC for payment year
2007. Excellus stated that the beneficiaries either did not have an HCC or did not meet the
enrollment criteria and, therefore, should be excluded from the extrapolation calculation.

Office of Inspector General Response

Under separate cover, Excellus provided a listing of the 1,218 beneficiaries whom it wanted
excluded from the sampling frame. After selecting a sample for review and providing additional
demographic information, Excellus determined that only 231 of the 1,218 beneficiaries should be
excluded from the sampling frame. However, Excellus provided documentation to support only
38 of these cases, which we accepted. Therefore, we revised our report accordingly.

Inclusion of Beneficiaries With End-Stage Renal Disease

Excellus Comments

Excellus stated that our sample included two beneficiaries with end-stage renal disease (ESRD),
a number that it believed was not proportionate to the number of beneficiaries in the population.
Excellus stated that it believes that CMS excludes beneficiaries with ESRD from its RADV
audits because a single unsubstantiated HCC for a member with ESRD can lead to a




                                                12
disproportionately large payment error. Therefore, Excellus requested that we remove these
beneficiaries from our sample.

Office of Inspector General Response

We included all beneficiaries that met the criteria in our population, regardless of whether they
had ESRD. Our sample was randomly selected and, by definition, was representative of the
population. In addition, although there were several outliers (large values) in our sample, which
utilizes the Central Limit Theorem, the presence of some outliers is of no consequence. 17

Due Process/Opportunity To Be Heard

Excellus Comments

Excellus stated that it should be provided an administrative appeal process more extensive than
the right to submit a response to our findings. Further, Excellus stated that CMS has an appeals
process for its RADV audits that provides a safeguard against erroneous audit results and that
audits conducted on behalf of CMS should be at least as accurate and fair as audits conducted by
CMS itself.

Office of Inspector General Response

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services programs and
operations. We did not conduct our audit on behalf of CMS. Accordingly, we do not always
determine, nor are we required to determine, whether our payment error calculation and
extrapolation methodology are consistent with CMS’s methodology. We designed our review to
determine whether diagnoses that Excellus submitted to CMS for use in CMS’s risk score
calculations complied with Federal requirements. Moreover, our audit makes recommendations
which are not final actions from which due process rights may arise.




17
  The theorem states that the distribution of the sample mean is approximately normal for large samples regardless
of the shape and nature of the population.


                                                        13
APPENDIXES
               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

SAMPLING FRAME

The sampling frame consisted of 25,832 beneficiaries on whose behalf the Centers for Medicare
& Medicaid Services paid Excellus Health Plan, Inc. (Excellus), approximately $261 million in
calendar year (CY) 2007. These beneficiaries (1) were continuously enrolled under contract
H3351 during all of CY 2006 and January of CY 2007 and (2) had a CY 2007 risk score that was
based on at least one Hierarchical Condition Category.

SAMPLE UNIT

The sample unit was a beneficiary.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 98 beneficiaries.

SOURCE OF THE RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software, RAT-
STATS, to generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame. After generating the
random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the total value of overpayments.
   APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                        Sample Results
                                       Number
Sampling
           Sample     Value of     of Beneficiaries     Value of
 Frame
            Size      Sample       With Incorrect     Overpayments
  Size
                                      Payments
 25,832      98      $1,028,811          45             $157,777



              Estimated Value of Overpayments
    (Limits Calculated for a 90-Percent Confidence Interval)

             Point estimate       $41,588,811
             Lower limit           28,875,675
             Upper limit           54,301,947
                                                                               Page 1 of 2

             APPENDIX C: DOCUMENTATION ERRORS IN SAMPLE

                              A    Unsupported diagnosis coding
                              B    No documentation provided
                              C    Unconfirmed diagnosis



                                                                               Total
                    Hierarchical Condition Category                A   B   C   Errors
1    Metastatic cancer and acute leukemia                          X             1
2    Diabetes with renal or peripheral circulatory manifestation   X             1
3    Nephritis                                                     X             1
4    Vascular disease                                              X             1
5    Lymphatic, head and neck, brain, and other major cancers      X             1
6    Diabetes with renal or peripheral circulatory manifestation   X             1
7    Seizure disorders and convulsions                             X             1
8    Angina pectoris/old myocardial infarction                     X             1
9    Vascular disease                                              X             1
10   Vascular disease                                              X             1
11   Schizophrenia                                                 X             1
12   Major depressive, bipolar, and paranoid disorders             X             1
13   Congestive heart failure                                      X             1
14   Diabetes with renal or peripheral circulatory manifestation   X             1
15   Congestive heart failure                                      X             1
16   Hip fracture/dislocation                                      X             1
17   Chronic obstructive pulmonary disease                         X             1
18   Congestive heart failure                                      X             1
19   Breast, prostate, colorectal, and other cancers and tumors    X             1
20   Vascular disease                                              X       X     2
     Rheumatoid arthritis and inflammatory connective tissue
21   disease                                                       X              1
22   Lung, upper digestive tract, and other severe cancers         X              1
23   Hip fracture/dislocation                                      X              1
24   Decubitus ulcer of skin                                       X              1
25   Diabetes with ophthalmologic or unspecified manifestation     X              1
26   Unstable angina and other acute ischemic heart disease        X              1
27   Diabetes with renal or peripheral circulatory manifestation   X              1
28   Diabetes with ophthalmologic or unspecified manifestation     X              1
29   Diabetes with renal or peripheral circulatory manifestation   X              1
30   Unstable angina and other acute ischemic heart disease        X              1
31   Vascular disease                                              X              1
32   Angina pectoris/old myocardial infarction                     X              1
     Rheumatoid arthritis and inflammatory connective tissue
33   disease                                                       X              1
34   Vascular disease                                              X              1
35   Angina pectoris/old myocardial infarction                     X              1
36   Major complications of medical care and trauma                X              1
37   Diabetes with renal or peripheral circulatory manifestation   X              1
38   Breast, prostate, colorectal, and other cancers and tumors    X              1
39   Metastatic cancer and acute leukemia                          X              1
                                                                                Page 2 of 2


                                                                                Total
                    Hierarchical Condition Category                A    B   C   Errors
40   Lung, upper digestive tract, and other severe cancers         X              1
41   Vascular disease with complications                           X              1
42   Breast, prostate, colorectal, and other cancers and tumors    X              1
43   Breast, prostate, colorectal, and other cancers and tumors    X              1
44   Diabetes with renal or peripheral circulatory manifestation        X         1
45   Ischemic or unspecified stroke                                X              1
46   Unstable angina and other acute ischemic heart disease        X              1
47   Diabetes without complication                                 X              1
48   Vascular disease                                              X              1
49   Hip fracture/dislocation                                      X              1
50   Breast, prostate, colorectal, and other cancers and tumors    X              1
51   Unstable angina and other acute ischemic heart disease        X              1
52   Ischemic or unspecified stroke                                X              1
53   Diabetes without complication                                 X              1
54   Ischemic or unspecified stroke                                X              1
55   Breast, prostate, colorectal, and other cancers and tumors    X              1
56   Vascular disease                                              X              1
57   Breast, prostate, colorectal, and other cancers and tumors    X              1
58   Vascular disease                                              X              1
59   Angina pectoris/old myocardial infarction                     X              1
60   Ischemic or unspecified stroke                                X              1
     Total                                                         59   1   1     61
                                                                                                      Page I of 29

                 APPENDIX D: EXCELLUS COMMENTS 





Excellus +~                                                              December 23, 20 [0


  Mr. James P. Edert
  Rcgionallnspc1:lor General for Aud it Services
  Region U
  Office o rTn speclor General
  U.s. Depanmcnl of Health & Human Services 

  Jacob lavits Federal Building 

  26 Federal Plaza, Room 3900 

  New York, NY 10278 


  Rc: 	   U.S. Department of Health & Human SCll'iccs. 

          Office of hlspector General (OIG) 

          Risk Adjustment Data Validation of Payments Made to 

          Excel1us Health Plan, Inc. for Calendar Year 2007 

          (Contract H3351) Draft Report 

          Report Number: A-02·09-0 1014 


  Dear Mr. Ellert:

  Exccllus Health Plan. inc. hereby submits Ihis letter and the enclosed comments in
  response \0 Ihe dran audit report orthe Office of Inspector Gcncrdllilled Risk At/jus/men/
  Daw Valida/joll ofPaymcnrs Made to Excellus Heillih Plan. fllc. fo r Co/mular Year 2007
  (Con/raN 113351).

  Excel lus 1·lcalth Plan, Inc. ("Excell us" or "The Plan") is a regional. lion-profit heal th plan
  committed to the health and well-being of its members and the communities it serves.
  While its roots can be traced to the 1935 founding of Rochester Hospital Ser'/ice
  Corporation, today"s Excellu.s was created through the 1998 merger of BlueCros...
  BlueShield o flhe Rochester Area, BlueCross BlueShieid ofCentl'al New York, and
  BlueCross BlueShicld of Utica-Watertown into a single entity. Univem Heahhcare
  mergoo inlO Excellus HeaLth P lan as ofOclobcr I, 200 I. Excellus o tTers group and
  individual commercial heal th care covemge, Medicaid Managed CaTc coverage,
  Medicare Advantage Plans, and Medicare Prescription Drug PlallS, among other types of
  health eare covemge. Today, we provide coverage to ovcr 1.7 million members across
  upstate New Yo rk. The Medicare Advantage Plans, Medicare Prescription Drug Plans,
  and Medi care Supplt:mental Plans we offer provide Ihe foundation of our ongoing
  commitmellt lo provide seniors with affordable and dignified access to nceded and
  effective health care coverage. We work di ligently to ensure that we have a broad array
  ofcovemge options to meet seniors' health care coverage needs. One of our predecessor
  plans, Univera Heal th Plans, offered a Medicare risk contract at the beginning o f the
  Medicare risk program in 1985.

  In keeping with this conunitment, we stri ve to prevent and detect fraud, waste and abuse.
  We have a comprehensive fraud, waste and abuse prevention and uct(."Ction program. We




              E........ -...c..... .kIPSIwId •
                                         '--""   16S("""~HI
                                                 _              ~1ff14647
                                                      _ 011 .•. _  _ _ _........~<tIIII

                                                                                                Page 2 of29



Mr. James P. Eder!
December 23, 20 10
Page 2

have a Special In vestigation Unit with eleven fu ll-time employees whose ?1ain function is
to investigate allegations of fraud and abusive billing practices. The Special . .
!Jwestigations Unit is a member o f the Nationa l Health Care A1ltl-Fraud Association,
which provides current infonnation on legislation and continumg educatlo~ fo r all staff
members. This program and others give us th e ability to deli ver high quality health care
coverage in a cost e ffective way.

The OIG made two fi nd ings in its audit report: 1) the Plan was overpaid in 2007 because
the diagnoses submitted by Excellus for use in risk score calculations were not suPP?rted,
and 2) the Plan needs to improve upon its current practices in order to ensure compli ance
with the requirements o f the Participant Guide. The Health Plan disputes the OIG
find ings. The overpayment find ing is inflated and based on flawed data. For the reasons
slated in thi s leUer and the enclosed comments, Excell us does not concur with th e findi ng
regard ing overpayment and requests that: I) the audit results be corrected and 2) the
results not be used to ex trapolate across the entire population. Our detailed response is
attached and a brie f summary follows.

Comments Regarding Payment Accuracy

Excellus has serious questions regarding the ability of the OIG to extrapo late its findings,
as well as the accuracy of the findings, for the following reasons:

Statistical Issues:

   Inadequate sample size. An overpayment should not be extrapo lated from the
   audi t flndings to the entire popUlation because the audit was conducted upon onl y
    100 enro llees. This samp le size is too small to meet the acceptabl e levels of
   confidence and precision. The sample size used by the OIG is inconsistent not
   on ly with the oro 's own protocols, but also wi th the standards set by the
   statistical community and those appl ied by CMS in evaluating overpayments
   under the Improper Payments Inform ation Act of 2002 (p. L. No. 107-300), as
   amended by the Improper Payments Elimination and Recovery Act of20 10 (p. L.
   No. 1 11-204). Mo reover, the OIG 's samp le size is one-half the sample size used
   by CMS in its RADV audits, resul ting in a signifi cant diminishment (29%) of the
   level of precis ion as compared to the level obtained by CMS in its audi ts.

  Unrepresentati ve Sample. Excellus underwent a CMS RADV audit for th e same
  contract for the prior payment year with a similar sample size. The results o f th ose
  audits were significantly different. The probability of drawing two representati ve
  samp les from the same popU lation with such disparate error rates was 0.000509,
  or extremely unli kely. This demonstrates that a sample o f 100 is too sma ll to get a
  representative samp le. Knowing whether or not a sample is representative is
  ex tremely diffi cult because critical factors such as provider documentat ion 

  practices and codin g staff ability and accuracy vary widely and cannot be easil y 

  measured to ensure sample representati veness.
                                                                                           Page 3 of29



Mr. James P. Edert
December 23, 2010
Page 3


   99% Confidence Interval. We believe that, if a federal governmental agency is
   going to retract tens of millions of dollars in payment, it must be certai n that its
   calculation of the amount to be retracted is accurate. Therefore, a 99%
   confidence interval should be used rather than the 90% used by the OIG. Thi s
   request is consistent with the proposed RADV sampling and extrapolation
   methodology in CMS's recent memo dated December 20, 20 10 titled "Medicare
   Advantage Risk Adjustment Data Validation (RADV) Notice ofPayment Error
   Calculation Methodology for Part C Organizations Selected for Contract-Level
   RADV Audits ". However, we emphasize that use of a 99% confidence interval
   does not correct for the ciled deficiencies in sample size and lack of
    representati veness.

No fee-for-Service Error Adiustment.
    eMS calibrated the Medicare Advantage payment model using traditional
    Medicare Fee-For-Service ("FFS") claims data and assumed that tl,at data was
    100% accurate. However, there is a disconnect in provider documentation
    contained in claims submitted for reimbursement and underlying medical records.
    Medicare Advantage plans' enro llees use the same providers as traditional
    Medicare FFS beneficiari es, and there is no reason to believe that providers
    document differently for Medicare Advantage than they do for FFS Medicare
    patients. Therefore, an adjustment should be made to account for the
    documentation shortfalls that were inherent in the calibration of the payment
    model. To do otherwise, would result in the government underpaying the health
    plans being audited.

Other Methodological Challenges.

    The sample overpayment finding of $213, 166 is inflated and should be reduced to
    account for the following factors:

   Provider Signature/Credential Attestations. Considerations of attestations to
   correct omitted physician signatures and credentials (this would be consistent with
   CMS's RADV audit methodology). We believe this is a point on whieh there is
   agreement as the OIG recently requested attestations [rom the plan;

    Additional Diagnoses. The OIG audi t only considered over payments, there was
    no consideration of diagnoses contained within the medical records but for which
    the Plan was not paid. lflhe pU.rpose of th e audit is to ensure appropriate payment
    based on the medical record documented diagnoses, there must be an all owance
    [or addit ional codes found during the audit;
                                                                                              Page 4 of29



Mr. James P. Edert
December 23, 2010
Page 4

   Expansion of Excluded CPT Code Ranges. The OIG's auditors inappropriately . .
   expanded the range of impennissible diagnostic radiology codes beyo nd the CP I
   ranges specified in eMS's manuals. We request a review of lhose records;

   Med ical Coding Discrepancies. We disagree with several coding detenninations
   of the OIG's auditors. We request a revi ew of the medical records in question;

   Membership Discrepancies. There are membership discrepancies in both the
   sample and the sample frame which illustrate that the OIG failed to fo llow
   correctly its own study design; at a minimum, these errors need to be corrected;
   and

    Inclusion of ESRD Members. Consistent with CMS RADV audit methodology,
    the OIG should remove eruollees with ESRD from our sample population and
    extrapo lation calculation.

Due Process.
    The OIG RADV audit practices differed significantly from the CMS RADV audit
    procedures. As a matter of fai rn ess, health plans sho uld be held to the same aud it
    standards by the Department of Health and Human Services. OIG used a sample
    size of 100, about half o f that used by CMS. CMS uses a stratified sample. The
    OIG did not. CMS has provided an appeals process for its RADV audits, but it is
    unclear how the OIG RADV audits faU into th at scheme.

Comments Regarding the Improvement of Current Practices to Ensure
Compliance with the Participant Guide

With regard to the OIO's second recommendation, Exccllus is aJways looking to improve
ils processes. Recent steps include:

    • 	 Significantly increased number of medical record reviews.
    • 	 RFI to replace our RAPS vendor.
    • 	 Implementation of prospective programs such as our frai l elderly program which
        strives to identify those members that require high-touch in-home care
        management interventions and coordination of care. These activities conducted
        by a qualified practitioner wi ll allow the Plan to accurately document diagnosis
        submitted to CMS.
    • 	 implementation ofbelter quality assurance processes of chat1 reviews.

Excellus recognizes th e importance of conti nual process improvements. However, the
physicians with whom the Plan contracts treat far more patients covered lruder Ori gi nal
Medicare than anyone Medicare Advantage plan. Excellus believes the iss ues that were
identified as par! or this audit arise equall y in the medi cal records of patients covered
                                                                                             Page 50f29



Mr. James P. Edert
December 23,2010
Page 5

under Original Medicare. Excellus believes that unless and until eMS takcs a significant
leadership role in directing physicians to correctly reflect the diagnoses ill the medical
record and claims submitted for reimbursement, it is unreasonable to expect that any
sing le hcallh plan acting alone will be able assure complete documentation compliance
by physicians treating its Medicare Advantage enrollees, as directed by thc OIG.
Excellus urges the OTG to adopt this point as one of its recommendations in its final
report.

We thank the OIG for this opportunity to comment 0 11 yo ur draft report and look forward
to working with you to improve the Med icare Advantage program.

Sincerely,

~Ob&M¥l--= _
Tove Stigmn
Vice President, Medicare Finance


Enclosure
                                                                     Page 6 of29




  Comments to Department of Health and Human Services Office ofInspector 

                              General Regarding: 

Risk Adjustment Data Validation of Payments Made to Excellus Health Plan, Inc. 

              for Calendar Year 2007 (Contract H3351) June 2010 

                                                                                                                            Page 70f29

Table of Contents


I. 	Statistical Issnes Related to the OIG's Extrapolation Methodology ........................ 8 

   A. Background ................................................................................................................ 8 

   B. Evaluation of Sample Size Adequacy ........................................................................ 9 

   C. Evaluation of Sample Representativeness and Other Considerations ............. ......... 12 

   D. Conclusion ............................................................................................................... 13 



II. Methodology Issues.................................................................................................... 14 

   A.         Need for Fee-for-Service Adjustment ............................................................... 14 

   B.         Missing Provider Signature and/or Credentials .................................. ... ........... 16 

   C.         Additional Codes and Underpayment Calculations .......................................... 17 

   D. 	       Diagnosis Coding Issues ................................................ .. ........ .. .............. ......... 17 

        _i._Definition of Diagnostic Radiology ................................................................... 17 

        ~Coding          Guideline Interpretation Differences .................................................... 19 

        iii. No Documentation Provided ....................................... ... ..................... ... ........... 19 

   E.         Sample Enrollment Discrepancies .................................................................... 20 

   F.         Sample Frame Enrollment Discrepancies ........ .. .............. ........ .. .............. ......... 20 

   G.         Inclusion of ESRD Members ........................... .. .............. ........ .. .............. ......... 20 



III. Process Improvement............................................................................................... 21 



IV. Due Process/Opportunity to Be Heard ................................................................... 22 



V. Technical Notes ......................................................................................................... 24 

                                                                                       Page 80f29

       Excellus Health Plan, Inc. ("Excellus") submits the following comments to the "Risk
Adjustment Data Validation of Payments Made to Excellus Health Plan, Inc. for Calendar Year
2007 (Contract H3351)" Draft Report, dated June 29, 2010 ("Draft Report"). Ourprimary
concerns regarding the Draft Report turn on the following issues: (1) statistical issues with the
extrapolation; (2) methodological issues; (3) coding disputes; and (4) due process.
1. Statistical Issues Related to the OIG's Extrapolation Methodology

A. Background

       In order to evaluate the potential overpayment to Excellus Health Plan, Inc. (Excellus),
the Office of Inspector General (OIG), Office of Audit Services randomly sampled 100
beneficiaries of 25,870 eligible beneficiaries.   According to the OIG's study design, eligible
beneficiaries consisted of those who:
   • 	 Were continuously enrolled under contract H3351 during all of CY2006 and January of
       CY2007 and
   • 	 Had a CY2007 risk score that was based on at least one Hierarchical Condition Category
       (HCC)

       The audit of the 100 beneficiary sample resulted in a finding that a risk adjusted payment
for 54 beneficiaries was paid in error with a total overpayment of $213,166 out of a total of
$1,041,179 sampled.     In this audit, only overpayments were considered errors and were not
offset by underpayments.     These results were then extrapolated over the entire population of
25,870 beneficiaries. The total dollar error was estimated to be $55,146,067, or approximately
over 20% of all dollars paid to Excellus, with 90% confidence limits of $40,397,674 to
$69,894,46l. (See V. Technical Notes, (1), page 20)
Below we have summarized our analysis to show that:
   • 	 The sample size of 100 is too small to obtain an extrapolation of error that fits into the
       norms of statistical inference.
   • 	 The sample results are not representative of the population from which they were drawn.

Calculations used in this report are summarized in V. Technical Notes below.
                                                                                        Page 9 of29

B. Evaluation of Sample Size Adequacy

        When making an estimate about a numerical value associated with a population, such as
the average payment error rate in the RADV audit, it is often impractical or impossible to
measure every single member of the population.         When this is the case, a sample is used to
estimate the numerical value.     Any sample that is smaller than the population will not be a
perfect representation of the population, so there will be an error between the true numerical
value for the population and the numerical value found in the sample. For this reason, a range
around the numerical value found in the sample is used.          This range is called a confidence
interval. With a given confidence interval, there is a probability that the true numerical value
falls within that range. This probability is called the level of confidence.
        In order for a confidence interval to be usable or credible, a sample of sufficient size must
be taken from the population.         If the sample is sufficiently large, the sample will be
representative of the population, and the difference between the numerical measurement
associated with the population will not be very different from the numerical value associated
with the sample with a high level of confidence.             If the sample is not representative,
extrapolating the sampled confidence interval would not be meaningful.
        Typical levels of confidence are 90%, 95%, or 99%. A 99% level of confidence can be
interpreted with the understanding that if the sampling is repeated 100 times and a confidence
interval is created every time, 99 out of those 100 intervals will contain the true population
parameter. We believe that given the payment retraction amount recommended in the Draft
Report, the OIG should be aiming for a higher level of confidence such as 99%.
        The size or width of the confidence interval depends on the variance of the underlying
population and the level of confidence. A larger variance indicates more uncertainty and will
increase the size of the confidence interval.     Similarly, a higher level of confidence will also
lead to a wider range. Everything else being equal, an interval that has 99% likelihood to contain
the mean will be larger than an interval that is 90% likely to contain the mean.
                                                                                           Page 10 of29

         In order to create a credibl e confidenc e int erval, an adequat e sampl e Size   is   necessary
The lample I!ze (n) for a Simple random lample Ii ulually based 00 th e foll oW1 ng formul a:

                        ' ' "'
                n. '" [-d--J
                         no   >< N
                        "Q+N         1

where,
no '" lntenm sample size
z = norm al clstributi on value aSSOCI ated W1th the l evel of confidence that the actual m ean will
fal l wi thin the confidence interval (typical ly I evels of 90%, 95%, 99% are us ed)
s '" estimate of popul ati on standard deviation
d = deS1fed prec1S1on (typically b etwe en ±S% or ±lO% of the population mean) This represents
the desired sIze or W1 <ih of the resulting confi dence Int erval.
n" final sampl e size
N '" popul ation size
         These formul as are coo"stent W1th the , ample Si ze calculation th at awear, m the OIG ' s
RAT-STATS Software (See Sectioo 5 of U,ers Manual and V. Technical Notes, (2), page 21).
In th e case of th e Excellu , OIG audi t, thi s form.ul a was not applied, but rather a random ,ampl e
of 100 (n) was us ed. If thes e formulas had been applied, a pilot or prob e sample of 30 to 50
benefiaanes would probably have been used t o estim ate the popul ati on standard devIation.
(This is what is typi cal ly done when th e population standard deviation is unknown.) The RAT ­
STATS manual explai ns thi s m ,ection 5-3
         However, the mform ation mcluded with the sampl e audi t prOVides enough information
that the standard deviatioo can be calcul ated using the fccmulas above. Given th at th e payment
ratel for 100 beneficiaries were sampled and the t otal value of th e ov erpayment il $213, 166, th e
average ov erp aym ent per benefiCiary     is   $2,13166. (S ee V. Te chmcal Notes, (3) , pag e 23.)
Ulmg the denved coofidence mterval, we can determme th at the standard devIati on uled to
calcul ate th e sample is $3,465.63 per beneficiary. (See V. Technical Notes, (4), page 23). To
estimate the ,am ple size nece ssary to be 90% confi dent the overpayment estimate was within
±l C"!, of the population mean , the s""ple SiZe would need to be 697 as ,hown below
                                                                                             Page 11 of29

                                           716 X 25,87 0
                                        716   + 25,870     ,   '" 697

          Thi s sampl e Si Ze would be at the low end of a sampl e Size that may produc e a m eall1ngful
extrapolation and is almost seven times larger than the audit sampl e size. A more rigorous
estimate which !s more frequentl y used m the statistical fiel d w ould be to use 95% confiden ce
within ±5% precision          The sample size necessary to produ ce this level of confidence and
precIsIon !s 3,5 11 (See V. Techll1cal Notes, (5), page 23), more than 35 times the sIze of th e
audi t
          Another way to evaluate the adequacy of the sample size would be to look at th e implied
level of preCISIOn gt ven the OIG audit's sampl e SI ze of 100. From abov e. th e sampl e S!ze !S
based on th e desired level of confidence. th e estimated standard deviation and th e desired leve l
of prec!S!on, or sIze of the confiden ce mterval . The table below shows the Implied l evels of
precisi on given fixed levels of confidence and sample size of 100 The first lin e in the table can
be interpreted as meaning we are 90% certain that the actual mean of the population has been
measured t o within :1:27% by a sampl e of SIze 100          (Also see th e illustration !n V Techll1cal
Notes, (9), page 24).
           Level of Confi dence Fixed at                     Resulti ng Imph ed Level of Frec! S! on
         90% (Level found in th e OIG audit)                     :1:27% (See Technical Note (6))
                         95%                                     :1:32% (See Techll1cal Note (I))
                         99%                                     :1:4 2% (See Te chll1c al Note (8))


          Still anoth er way to evalu ate th e sampl e S!ze would be to fix th e l evel of prec! slOn at an
acceptable l evel and look at th e implied level of confidence Th e interpretation of th e first lin e
bel ow 11 that we can be only 46% certam that the actual mean of the popul ation has been
measured to within :1:10% by a sampl e of size 100
            Level of Precision Fixed at:                   Resulting Impli ed Level of Confidence:
                        :1:10"1,                                 46% (See Te chnical Note (10))
                        :1:5%                                    24% (See Technical Note (11))


          From this analysis. it can be concl uded that th e sample size is not adequate to measure
the mean or confiden ce hmit s to provIde any statistical ly meanmgful results . Depending on the
desired confi denc e l evel and leve l of pr ecisIOn, th e sampl e !, about 7 to 35 tim es sm all er than
                                                                                          Page 12 of29

what is needed. To have a statistically acceptable level of confidence, the degree of precision is
about three times or more (27% to 32%) outside of the norms of what are usually considered
statistically acceptable results.       To estimate the actual mean with any level of acceptable
precision, there is no statistically acceptable degree of confidence, given a sample size of 100. A
sample size of one hundred might be more appropriate for a compliance audit than for an audit
with extrapolated results of this magnitude.

C. Evaluation of Sample Representativeness and Other Considerations

           Excellus had a prior CMS RADV audit for payment year 2006 that is materially
inconsistent with the current OIG audit. The CMS RADV audit revealed an error rate of 30.3%
(33 beneficiaries out of 109). This error rate was calculated based on only overpayments, so the
error rate is comparable to the OIG error rate determination. The OIG audit produced an error
rate of 54 out of 100 beneficiaries, or 54%.              The probability of drawing two representative
samples from the same population with error rates of 33 out of 109 and 54 out of 100 is
0.000509. (See V. Technical Notes, (12), page 24) It is quite unlikely that this difference could
have come from changes to policies and procedures within Excellus over a one year period. It is
quite likely that the difference in error rates is caused by a sample that is not representative and
the CMS and OIG processes for measuring errors are significantly different.
           A report issued by the American Health Lawyers Association titled Statistical Sampling
in the Medicare Program: Challenging Its Use states that the sample coefficient of variation
((standard deviation/mean) - 1) stated as a percentage should not exceed twelve percent. (Id.,
page 18) The coefficient of variation (also known as the estimated relative error) for this sample
is 63% (See V. Technical Notes, (13), page 25) which implies that given the size of the sample,
the variation within the sample is probably too large to allow the sample to be representative of
the overall population. This is usually caused by unrepresentative large outliers that can appear
in a small sample.        This can lead to a bias that can make the estimate of the overpayment
overstated, an unrepresentative sample and an invalid extrapolation.
           This is further supported by information published by the Wisconsin Department of
Health Services', Wisconsin Interactive Statistics on Health 18 This states that for a confidence
interval of 8% to 9% of the sampled mean or larger, the reliability of the estimate becomes
suspect. In addition, the coefficient of variation should not exceed 30%. In Excellus' case, the

18   See www.dhs.wisconsin.gov/wishirnainIBRFSlrse.htrn
                                                                                      Page 13 of29

confidence limit is ±27% with 90% confidence and a coefficient of variation of 63%, which is
much higher than 30%. Even with these more liberal standards, the OIG audit has produced
results which bring into question the overall conclusions drawn in OIG's report.

D. Conclusion

       Sampling is not a "one size fits all" process. Using standard statistical formulas and
methodology for calculating audit sample size, it is clear that a sample size of 100 is not close to
being adequate to measure a potential overpayment to Excellus. The sample size is anywhere
from 7 to over 35 times too small to make conclusive extrapolations. If standard statistical
confidence levels (:> 90%) are met, the desired precision is not. If the desired level of precision
(S ± 10%) is met, the confidence levels are too low.
       The coefficient of variation of 63% far exceeds the level of two sources (the American
Health Lawyers Association and the Wisconsin Department of Health Services) for accepting a
sample as being representative of the population from which it was selected.
       If attestation errors and a few other differences are allowed to be corrected in the OIG
audit, a significant drop in the lower bound of the confidence level (roughly 51% for a 99%
confidence level) is obtained.     These issues need to be explored further before any final
conclusions are drawn.
       The significant difference in the error rate between the CMS RADV audit error rate from
2006 and the OIG error rate from 2007 counted on a consistent basis (overpayments only) raises
serious concerns about the representativeness of the sample and differences in how CMS RADV
and OIG audits are performed. This is supported by the fact that the difference in the error rate
between the two audits is highly significant (p   ~   0.000509). Another way of saying this is that
the probability of drawing two representative samples that have means so far apart using the
same methodology from the same population is 0.000509.
       For these reasons, the results of this 100 sample audit should not be used for
extrapolation of an error rate across the entire population. The sample size was too small to meet
the acceptable levels of confidence and precision. The sample size was inconsistent with the
OIG's own protocols, those applied by CMS in its RADV audits and the standards set by the
statistical community. Further, the sample was unrepresentative of the population as
demonstrated by the fact that Excellus underwent a CMS RADV audit for the same contract for
the prior payment year with significantly different results. The sample size used together with
                                                                                      Page 14 of29

the confidence and precision levels applied do not lead to a reliable estimate of any alleged
overpayment.     The results should be corrected for the reasons outlined below and any
overpayments should be limited to the specific records audited.


II. Methodology Issues

A. 	   Need for A Fee-for-Service Error RateAdjustment

       The current Medicare Advantage risk-adjusted payment methodology was developed and
calibrated based on Medicare Fee-For-Service ("FFS") data, and more specifically claims data.
At the time, CMS determined that the underlying medical record would be the ultimate source of
diagnosis information. However, the model was calibrated using claims data, not medical
records. As the RADV audits have demonstrated, there is a material gap in documentation
between claims data and medical record data. The OIG's RADV audit needs to adjust for this
inconsistency. This adjustment is consistent with CMS's frequently asserted position that an
adjustment to the CMS-HCC model needs to be done to account for coding differences between
MA plans and Original Medicare.
       An alternative way of illustrating this inconsistency is to consider the average risk score
of the entire Medicare FFS population. CMS calibrates the HCC risk model so that the average
risk factor of the FFS population is l.00, using only claims record data to determine the
probability of having a certain HCC. If CMS had audited the FFS data that was used to
normalize the risk-adjustment model to a risk score of l.0, the average risk score of that
population would drop significantly to reflect a similar disconnect between claims data and
medical record data experienced in this audit. In short the payment model is calibrated to arrive
at an average risk score of l.0, but the average risk score under RADV audit methodologies will
naturally fall significantly below l.0. This means that a correction for the FFS error rate (not the
published error rate, but a similar RADV type error rate) must be made, or plans undergoing
RADV audits will be underpaid relative to what was intended and publicized at the time the bids
were developed. In short, by basing HCC verification on a medical record standard rather than a
claims data standard, the probabilities of having a certain HCC will be materially reduced and an
adjustment must be made for this.

       For example, at a recent industry conference, a speaker noted that providers often code an
active cancer diagnosis rather than a history of cancer, for follow-up appointments. If this is
                                                                                       Page 15 of29

true, then cancer diagnoses are over represented in claims data, and the payment factor applied to
cancer diagnoses is too low relative to the true incidence of cancer. For purposes of illustration,
we provide a highly simplified example of this principle. Assume that based upon claims
information only, the risk-adjusted payment calibration data showed 10,000 members with a
diagnosis of active breast cancer, and the costs of their health care totaled approximately
$250,000,000; this would indicate an average cost of care of approximately $25,000 per member
diagnosed with an active breast cancer diagnosis. The calibration for breast cancer would then
be a factor that arrived at an average payment of $25,000 per member. However, if the medical
record data for those members was examined and an error rate of 50 percent was found, then the
adjustment factor really should have been such that the average payment was $50,000, which
would be more in line with the true cost of care.
       If payments to health plans are based upon a model that is calibrated on claims data, but
audits of those payments are based upon medical records rather than claims data, a disconnect
arises. For every enrollee, who we thought had cancer based on claims data submitted by her
provider, there are thousands of Medicare beneficiaries in the FFS data used to calibrate the
model where the diagnosis in the claims data does not match the underlying medical record. In
effect, the audit would reset payment levels to a level that is lower than originally intended,
because of discrepancies between the provider's claims data and the medical record. eMS's
model calibration assumed claims data to be accurate, but the results from the RADV audits
illustrate that this is not the case. The audits will inherently set payment levels below what was
assumed during payment model calibration.
       Furthermore, for the month of November, Excellus averaged almost 8,500 medical claims
per day for our Medicare Advantage members, of which a large percentage are claims RAPS
eligible. The RADV audit standard implies that health plans would need to collect and review
every single medical record that supports the RAPS eligible claims. This would create an undue
and costly administrative burden on providers and the health plans. One must ask if diverting
such significant dollars away from patient care and into administrative tasks is the best value for
Medicare Advantage beneficiaries. We recognize that HHS has a fiduciary interest in ensuring
accurate payments to health plans and in reducing fraud, waste and abuse; however it is not clear
that holding health plans to a costly audit standard that is unrelated to the payment model
calibration is the appropriate audit protocol.
                                                                                       Page 16 of29

       Therefore, an adjustment should be made to account for the documentation shortfalls that
were inherent in the calibration of the risk adjusted payment model. To do otherwise, would
result in a significant underpayment to the Plan.

B. 	   Missing Provider Signature and/or Credentials

       Current CMS RADV audit practice allows for signature attestations (except for inpatient
hospital records), on a CMS-provided, audit specific form. In the final rule revising the
regulations that govern the Medicare Advantage program, published in the Federal Register on
April 15, 2010 (the "Final Rule"), CMS states:


       We noted that analysis of data originating from medical records submitted by MA
       organizations that have undergone RADV audit indicates that a substantial
       percentage of medical record-related payment error determinations are due to
       missing signatures or credentials on medical records ... RADV audit procedures
       require that, in addition to finding diagnosis information that would support the
        HCCs submitted by the MA organization for risk adjustment purposes, physician
       signatures, and appropriate credentials must be present on medical records ... the
       presence of a signature or credential attestation to accompany these medical
       records would in our opinion, provide justification for preventing both contract­
       level and national-level RADV payment errors that would otherwise originate
       from medical record signature, or credential-related discrepancies 19
       In its draft report, the OIG emphasized that in conducting its audits, it applied the 2007
Risk Adjustment Data Training for Medicare Advantage Organizations and that it reviewed
federal laws, regulations and guidance regarding payment to MA organizations. However,
unlike CMS, the OIG did not allow for signature attestations at the outset of the RADV audit two
years ago, and the OIG's draft report reflects this stance.
       It must be noted that the OIG has recently changed its stance on the provider attestations;
however, almost two additional years have passed since the audit started and the plan was asked
to provide attestations with specific language included. This means that the plan may not be able
to collect all the signature attestations that are required as providers have since moved, retired or



19
       72 Fed. Reg. 19678,19742 - 43 (April 15, 2010).
                                                                                      Page 17 of29

passed away. To the extent that this is the case, Excellus requests that the OIG accept the original
attestations provided.

C. 	   Additional Codes and Underpayment Calculations

       Amongst the best medical records submitted to the OIG, additional codes were identified
in support of HCCs that could affect an audit member's risk score. Twelve additional medical
diagnosis codes and relative HCCs were supported by documentation found within submitted
best medical records of audit codes. The OIG refused to acknowledge, review, and accept for
risk score calculation any of these additional codes identified by Excellus.
       Further, Excellus identified, within medical records reviewed, 22 other additional codes,
in support of HCCs that could affect an audit member's risk score. The OIG would not accept
for risk score calculation any of these additional codes identified by Excellus. In the Final Rule,
CMS indicated its willingness to accept additional diagnosis codes and relative HCCs found
within the best medical record submitted for RADV audit purposes. CMS noted that accepting
these codes would aid in fully representing a member's status and decreasing a member plan's
overall payment error calculation.
       Excellus requests that the OIG recognize the additional codes, located within a best
medical record submitted to support audit HCCs, in calculating the patients' risk scores and the
overall financial impact to the plan. The OIG's failure to allow these additional codes that are
part of the best medical record denies Excellus its right under CMS procedures to have those
codes considered. Accordingly, these codes should be included in the audit findings and used to
recalculate the payment error.
       Finally, although not part ofCMS's current methodology, Excellus believes that the
standard for documenting diagnoses should be expanded to allow for other credible sources. At
a minimum, ifOIG considers additional codes in the "best medical record", Excellus requests the
ability to substitute the "best medical records" to support those additional codes.

D. 	   Diagnosis Coding Issues

       i. Definition of Diagnostic Radiology
       In its 2006 and 2007 Risk Adjustment Data Training Manuals ("2006 Manual" and "2007
Manual"), CMS has outlined its data collection/submission and RADV audit procedures for the
2007 payment year. The 2006 and 2007 Manuals provide guidance on approved provider types
                                                                                                Page 18 of29

and services from which to collect and submit data for risk-adjustment, as well as appropriate
sources of documentation to use as the best medical record for data validation. The 2006 Manual
specified the CPT range 20 of diagnostic services, all being within the radiology services, from
which data should not be collected and submitted for risk-adjustment. Further, both Manuals
clearly outline CMS's reasons for objecting to the use of diagnostic radiology as the best medical
record to validate HCCs. Extending the exclusion of diagnostic reports beyond the specified
CPT ranges contradicts the instructions provided by CMS and unfairly penalizes the plan. In
essence, the rules set by CMS specify the CPT ranges to be excluded. The OIG cannot broaden
the exclusion list years later.
        Based on the 2006 and 2007 Manuals, Excellus does not agree that the five HCCs listed
below were not substantiated.


                                                        Outside                   Allowed
                    HCC                      CPT        Omitted     Provider      Provider
                   Audit#         HCC        code        Range       Type          Type
                  H3351-001    HCC7          9921325        Y        Physician        Y
                  HCC10
                  H3351-050    HCC83         93000          Y        Hospital         Y
                  HCC83                                             Outpatient
                  H3351-049    HCC105        93925,         Y       Physician         Y
                  HCC105                     93923
                  H3351-067    HCC105        99213          Y        Physician        Y
                  HCC105
                  H3351-009    HCC105        93320,         Y        Physician        Y
                  HCC105                     93015,
                                             93325,
                                             39950



        These five HCCs failed because they were contained within a diagnostic report that the
OIG's reviewers specifically commented was an inappropriate documentation source. None of
these diagnostic studies fell within the excluded diagnostic radiology code range specified by
CMS. Further, all of the service providers were approved by CMS as appropriate sources of
risk-adjustment data. Finally, unlike a diagnostic radiologist, providers of the referenced
services are either the ordering provider or a member of that provider'S practice. As such, the

20
        In relevant part, section 4-11 of the 2006 Manual states: "For those plans that use CPT codes to screen
        diagnosis codes submitted to eMS, please note that the CPT range for radiology is 7000 through 79999.
        The following CPT codes indicate diagnostic radiology and diagnoses on claims should not be submitted to
        eMS in risk-adjustment data: 70010 through 76999 and 78000 through 78999". The same quote can be
        found in section 4-11 of the 2007 Manual.
                                                                                          Page 19 of29

findings can also be considered final diagnosis. Excellus requests that these records be
reconsidered.
        ii. Coding Guideline Interpretation Differences
        As mentioned previously, when Excellus initiated record recovery and review of medical
records for data validation for the audit, it was instructed to utilize those rules set forth in the
CMS training manual for RADV audits. Excellus utilized the coding guidelines published in the
2006 ICD-9 coding book, the 2006 Manual and the 2007 Manual when identifying records that
best supported the indicated diagnoses.
        The OIG validation contractors appear to have excluded three medical records
substantiating the indicated diagnoses and relative HCCs, based on an incorrect application of
CMS or ICD-9 coding guidelines. Excellus maintains that the date of service on one record was
misread and, therefore, thought to be outside the year of service requested. A second was found
to be supportive of a diabetic manifestation code, but deemed not to be supportive of the
underlying diabetes, which is counterintuitive to the coding guidelines. The third was found to
be unsupportive of angina while the member had a stated diagnosis of and was receiving
treatment for angina. Excellus requests that these records be reviewed by another coder.

        iii. No Documentation Provided
As mentioned in the Draft Report, five HCCs were found to be unsupported by the medical
record. During the course of the OIG RADV, Excellus discovered that an error within its
vendor's RAPS Management software that affected four HCCs. Within the logic used to create
the Excellus RAPS files, there was a wrapping issue that incorrectly submitted diagnosis clusters
under the wrong HICN. The four HCCs were triggered solely by the errant submission. Because
the issue affected more than one contract and more than one payment year, Excellus felt that a
global fix with CMS was needed and the issue was immediately addressed with CMS. An
analysis was performed on all Excellus contracts, resulting in the deletion of over 600 diagnosis
clusters with 2006 - 2009 dates of service. A RAPS deletion file was submitted and accepted.
The payment retraction for those errors was recently completed in the August payment and the
HCCs were removed from the members' history. Thus, the OIG audit should exclude those four
HCCs as any risk-adjusted payments based on those were already reconciled with CMS.
        With respect to the fifth HCC that the OIG classified as unsupported, Excellus agrees
with this classification. The HCC originally resulted from human error in a chart review audit.
As discussed in greater detail below, Excellus has significantly improved quality assurance
                                                                                    Page 20 of29

("QA") procedures to ensure that this type of error is minimized going forward. An outside
vendor has been engaged and is conducting the vast majority of the Excellus chart audits. A key
factor in the vendor selection was that the vendor has rigorous coder training and QA procedures
to minimize the impacts of coder error.

E. 	   Sample Enrollment Discrepancies

       Member enrollment and payment discrepancies related to the 100 beneficiary sample
must be corrected based on current MMR information. Beneficiary #042 was retroactively
disenrolled as of the January 2010 MMR for all of payment year 2007. That member and the
$1,789.15 payment discrepancy attributed to himlher should be removed from the sample
statistics. Additionally, beneficiary #089 was assumed to have been enrolled for the full calendar
year of 2007. However, MMRs indicate that he/she was only enrolled the first eight months of
the year. That would reduce the calculated overpayment for that beneficiary from $2,225.58 to
$1,483.72. We request that the OIG adjust their calculations to reflect these two enrollment
discrepancies in the sample.

F. 	   Sample Frame Enrollment Discrepancies

       The OIG started with a sample frame of25,870 members who met the criteria of having
been continuously enrolled with Excellus for the 13 month period from January 2006 through
January 2007 and the members must have at least one HCC for payment year 2007. The sample
frame is the universe from which the member sample was selected as well as the membership
against which the extrapolation was calculated. The OIG provided Excellus with the sample
frame membership so that we might be able to verify the accuracy of that membership As the
sample frame membership is a key component of the extrapolation calculation, it is critical that
the membership count is accurate. We have found that a little over 1,200 members included in
the sample frame do not meet the criteria based on current data. These members either do not
have an HCC or they did not meet the enrollment criteria. Therefore, they should be excluded
from any extrapolation calculation.

G. 	   Inclusion ofESRD Members

       The OIG selected two members with ESRD in their sample. The proportion of members
with ESRD in the sample was six times the incidence in our member population. It is our
understanding that CMS excludes members with ESRD from their RADV audits, in part because
                                                                                      Page 21 of29

a single unsubstantiated HCC for a member with ESRD can lead to a disproportionately large
payment error, thus potentially skewing results. Excellus requests that the members with ESRD
be removed from the sample in order to ensure more consistency between audit protocols at
HHS.
III. 	   Process Improvement
         Excellus is continually striving to improve its processes. Recent initiatives to improve
coding accuracy are discussed below.
         Excellus has significantly expanded the number of provider charts reviewed. Increased
quality assurance processes around those chart reviews including: checks and balances to assure
that more than one coder is in agreement that the codes are clearly documented in the medical
record. Excellus performed blind reviews in order not to bias the coder with information about
previously submitted codes by providers.
         Excellus has selected a new vendor for reporting information to CMS. In 2009, the Plan
completed a Request for Information ("RFI") process to evaluate vendors' capabilities in the area
ofHCC management and reporting. A goal of this vendor change has been to implement
additional quality controls around the claims data feeds that form the basis of the Excellus' s
RAPS submissions to CMS.
         The new RAPS vendor's application provides capabilities for provider reporting around
coding and documentation accuracy as seen through the chart review process. This reporting
will allow Excellus to do more specific outreach to provider offices based on each provider or
provider group's data. We have started the implementation of this application and anticipate that
it will be in operation in 20ll.
         Excellus has approved the addition of 2 full-time employees to provide auditing and
quality oversight to the coding staff as well as to perform provider outreach. The provider
outreach is intended to educate providers on proper coding and maintenance of medical record
documentation standards. In addition, in an effort to improve communication surrounding
coding and documentation practices and frequently observed coding discrepancies, Excellus has
increased the number of provider newsletter articles.
         Excellus has expanded its Care Management Program. Excellus has implemented a frail
elderly program and a home evaluation program to better identify those members with a
significant burden of illness that require in-home care management interventions and
                                                                                      Page 22 of29

coordination of care. These activities conducted by a qualified practitioner will allow the health
plan to accurately document diagnosis submitted to CMS.
IV. Due Process/Opportunity to Be Heard
       The OIG should provide Excellus with an administrative appeal process more extensive
than the right to submit a response to the OIG's findings. Excellus believes that, at a minimum,
the same rights and appeals mechanisms that CMS gives to MA organizations that undergo CMS
RADV audits should be available in connection with an OIG audit; Excellus is assuming that,
should it opt to appeal the OIG's findings, in whole or in part, the appeal would be handled
through CMS.
       Under the CMS process, audited plans have a right to appeal the medical record review
results. An independent validation contractor reviews the results of the Initial Validation
Contractor ("IVC"). Under the CMS process, audited plans also have access to the document
dispute process, so that they can ensure that CMS and its contractors correctly collect all
documents submitted by the plans. In addition, and as mentioned above, under the CMS process,
an audited plan may submit signature and credentialing attestations.
       In the October 22,2009 Notice of Proposed Rulemaking ("NPRM") and reiterated in its
April 15, 2010, final rule, CMS asserts that the "methodology that [CMS] employ[s] to calculate
RADV payment errors is methodologically sound and academically defensible." In contrast, as
discussed in detail, the methodology employed by the OIG is not methodologically and
academically defensible, yet there does not appear to be an administrative appeal mechanism to
challenge the methodology used by the OIG, which differs significantly from that used by CMS.
Fundamental fairness dictates that access be provided an appeals mechanism designed to ensure
that the methodology of RADV audits conducted on behalf of CMS would be at least as accurate
and fair as the audits conducted by CMS, itself.
       As a matter of fairness, Excellus should not be held to inconsistent audit standards by two
agencies within the Department of Health and Human Services. OIG used a sample size of 100,
about half of that used by CMS. CMS uses a stratified sample. The OIG did not. CMS has an
appeals process for its RADV audits which provides a safeguard against erroneous audit results.
Those same standard and rights provided by CMS should be applied in this matter.
                                             CONCLUSION
       Excellus does not concur with the OIG's findings regarding overpayments. As
demonstrated above: 1) the sample size of 100 is too small to obtain an extrapolation of error that
                                                                                         Page 23 of29

fits into the nonns of statistical inference, 2) the sample results are not representative of the
population from which they were drawn, and 3) there is an inherent documentation error rate in
the calibration of the payment model itself. For these reasons, no extrapolation should be made
from the audit findings. Further, there are a number of discrepancies in the sample frame used,
the sample drawn and certain coding detenninations. Also, Excellus should be afforded the
same rights for: 1) submission of provider signature and credential attestations, 2) consideration
of additional diagnosis codes and 3) record review by another coder, all of which are provided by
eMS under its RADV Audit procedures. For these reasons, the audit findings should be
corrected to detennine an accurate overpayment amount based on only those records audited.
                                                                                      Page 24 of29

v.   Technical Notes
For fonnulae below, the following definitions apply:
x    ~    point estimate of extrapolated sample (mean)
Xu       ~   upper end of 90% confidence limit for extrapolated sample
no   ~   interim sample size
z    ~   nonnal distribution value associated with the level of confidence that the actual mean will
fall within the confidence interval (typically levels of 90%, 95%, 99% are used)
s ~ estimate of population standard deviation
d   ~    desired precision of the sample (typically between ±5% or ±10% of the population mean)
n   ~    final sample size
N    ~   population size
         (1) Alternative confidence ranges for 95% and 99% confidence are calculated using the
              following fonnula: 

              _+
              x       z ­s

                  -     .[ii.

              for 95% confidence, the range is $37,573,521 - $72,718,613 

              for 99% confidence, the range is $32,014,865 - $78,277,278 

                                                                                                                Page 25 of29

     (2) Sample Size calculation from RAT-STATS Software:



                                                                                     Confidence Level
                                        PtobeS-",FOf_
                                        r    Te><! File
                                                                                         r""         r."
                                        r    b cel Sp!eM!heel [)(lSI                     rm          r."
                                        r    Acu.. TabIs[ MOB)
                                                                                                 r ...
                                        to   No P,obe S~ File
                                                                                     Ptecision

                                   Uni.. e , se S;~e:     125B7d                     r   1~           r   lOt
                                                                                      r",             r,,,
                                                                                      r"              r c...
                                                                                              r ...




                                                          [ '~~-" '"[:J
                                                                     "
     P'obe Sa.pIe For.at 

                                                              17 007.      17 95\
      r    Text Fie 

[	    r    E, c ~   Spreodshee! (.>15 ) 
                     17 007.      17 9'3\

      r    Access Tobie (. MDS ) 
                                      " AO
      r.   No Probe      S~       Fie
                                                           "-"­
Universe Size :          'I';.;";';::==--                 [ p" 1\

                                                            p" 2\

                                                            17 5\
                                                                           p" 10\

                                                                           p" 15\




                              OUTPUT TO

                              r
      "''''               [
                              r
                                   T.,. F.. .....dSe<_


 Main Menu           I             Print« "'" Screen
                                                                          LCo~'O-,~Ir<~
                                                                                      ' lG'"'----=::::::::::------
                                                                                           '.
       EXIT
                              r.   Screen D ~
                                                     CMfidence     Le~el


                                        1
r
    p~~e:~ F~.M
    r    E ,c~   Spre¥J,1".ffi [>1.S1

    r    AccOil Taible [,hWSI

    r.   No Probe S~ Fie
                                                     Precision


Uni~etle Size:        'I"".'.ro;; -- -­                                  p" 1OX
                                                                     p" 15%

                                                     p" 5%           r     Other

                                                               ".                  Ente.the e.t~e rJ the cffi«,e ,Ilinda rd de~(,rr,    OK


         .. I r
                                                                                   NOT E This ..... "",I be po,,;"'.
                          OUTPUT TO                                                                                                    c...
    "'                     r   Te>:l FieorodScreen

loI ein loI enu
                           r   Prrie. orod Screen         1 LC~J~pl'~65~63'---=::::::::::::::::~
     EXII




                                                                 Conlidttn C6 LQylit1
                                                         8D~
                                                      1S210
                                                               •          90 ~
                                                                         ",,,•        ' 5'
                                                                                      20617           '"
                                                                                                     2154.
                                                       7£,45             10572        128 12          '6210
                                                       '62'               25"        "TIu             5519
                                                                         "W
                                            '0% 

                                            ' 5' 

                                                       '"'92
                                                                          '"            ...
                                                                                        977           15(2
                                                                                                       75'


                                        UOIY"' IC SI.ZC        1,--",;0","'0--­
                                                         Me«1 rl--:2~.1;;';-";;;;-'­
                                               SIt!, Oevietoo -"C:
                                                                 ,46"'''
                                                                     .S'3-­
                                                                   ;-1




                                HELP                   EXIT                    P.8viou. SCUI8f1         I
                                                                                 Page 27 of 29

(3) 	T otal Sampl e Dollar, 1n Error -;.- n

    $213 ,166 -;.- 100 = $2,13 1 66
(4) 	 Standard Devlation

,   ~
        (x u   - xl X Iff
               z   X N

                                                              $3,465,6 3

(5) 	Sampl e Size Calculation

n. --["- ,--J"' ­­        1.96 X $3 465,63[ ' = 4,0 62
                         [	   $ 10 fi -'iR


                         ,
(6) 	L evel ofPreC1S1on with 90% L evel of Confidenc e and Sampl e Size of 100

        '-"'
          "=        "~·'C4"'_X'i;iSii3i'.40'"S~·'03 ~
d~ 	      -n-       -          .J'I'D'O                  $570.10 

         $570.10+ $2,13 1 66=±27% 

(I) 	Level ofPreC1S1on with 95% Level of Confidenc e and Sampl e Size of 100
    z xs 1.96 X $3465.6 3
d ~ -~ =-"i;F=~
          ~                  .J'I'D'O               $679.26 

        $679.26 +$ 2,13166=±32% 

(8) 	Level of Pre clS1on with 99% Level of Confidenc e and Sampl e Size of 100
  Z KS              2,5 76 X $3465,63
d~--=                	                          =
         Iii                 .J'I'D'O                   $892. 69 

    $8 92.69+ $2,13166=±42% 

                                                                                          Page 28 of29

(9) Illustration oflevels of precision.




           1,000                 1,500               2,000                2,500   3,000

                                         Ove rp aymant per Benefici ary


                                • Point Estimate
                                • DIG Confidence Limits
                                • Confidence limits with 10% level of Precision

                                • Confidence Limits with 5% Level of Precision




(10)            Level of Confidence with 10% Level of Precision and Sample Size of 100
       d x.fii           5213.17 X ,1100
z=                 = ---=--,--:-=-:--- = .62
            s                 53,465.6 3
z = .62 ~ 46% Confidence
(11)            Level of Confidence with 5% Level of Precision and Sample Size of 100
       d x.fii           5106.58 X       .fIOO
z=                 =                             = .3 1
            s                 53,465.63
       z   = .31       --7   24% Confidence
(12)            Based on the Binomial Distribution hypothesis test:




                                33                54+33      87
                         p , = 109'         Pc = 100 + 109 = 209
P 1 and pz from OIG audit, eMS audit, respectively. Pc represents the average proportion
among both samples.
                                                                                 Page 29 of29


                                                                = 3.4758




                p-valu e = 0 000 509


(13)
                               sampla Standard D8Ptatton)                G3'46S.6~
Coeffld.ent of VartatL01t= (                  I                   - 1=                - 1 = 63 ",
                                       Sump       fI   M flan              2,13 1.6
